                                Closeout for Case A01100033



        In October 2001, the Office of Inspector General (OIG) received an allegation about a
National Science Foundation (NSF) employee1viewing a number of sexually explicit images on
his desktop computer monitor.

         The employee's immediate supervisor2 counciled the employee advising him that such activity
constituted an NSF administrative violation (codified under the Internet Access and Electronic Mail
Systems provision contained in NSF BULLETIN 98-13: Personal Use of NSF's Technology and
Communication Resources). The Supervisor also informed the employee that such inappropriate activity
must be discontinued in NSF work spaces and further advised that if such activity was not discontinued
she would have to take disciplinary action. The supervisor also offered the employee the opportunity to
discuss the issue further if he so desired.

         Infractions of NSF internal regulations, as codified by NSF Bulletin's, constitute administrative
violations which fall under the authorities of NSF personnel management. This alleged violation was
identified by the employee's immediate supervisor, wh% took appropriate supervisory corrective action
(verbal admonishment) to stop the violation. The supervisor then counseled the employee and informed
him that his activity was inappropriate, in violation of NSF internal regulations, explained what standards
of behavior were expected in the workplace, and advised that if such inappropriate behavior was to persist
that disciplinary action could be expected. Absent any such recidivism there are no violations of NSF
regulations which would warrant Office of Inspector General intervention at this time.

        This inquiry is closed and no further action will be taken.




' Redacted
 Redacted


                                           Page 1 of 1                                   A01-33
